No. 20-240

 

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2019

 

COMMONWEALTH OF KENTUCKY,
Commonwealth
vs.
LARRY LAMONT WHITE
Respondent

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

 

RESPONDENT LARRY LAMONT WHITE
BRIEF IN OPPOSITION

 

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

 

The Petitioner, Larry Lamont White, asks leave to file the attached Brief in
Opposition to the Supreme Court of Kentucky without prepayment of costs and to
proceed in forma pauperis pursuant to Rule 39. The petitioner was permitted to
proceed as an indigent by the Supreme Court of Kentucky, and the trial court. The
order for affidavit of indigency appointing the Department of Public Advocacy to

represent Mr. White pursuant to KRS Chapter 31 is attached to this motion.
*KATHLEEN KALLAHER SCHMIDT
ERIN HOFFMAN YANG

*Counsel of Record

Assistant Public Advocate

Kentucky Department of Public Advocacy
5 Mill Creek Park, Ste. 100

Frankfort, Kentucky 40601

(502) 564-8006

Kathleen.schmidt@ky.gov
Erin.yang@ky.gov
No. 07-CR-004230 Jefferson Circuit Court
Division Two (2)

Commonwealth of Kentucky Plaintiff
vv Order to Proceed on Appeal and Appointing Counsel

Larry Lamont White * Defendant

Upon application pursuant KRS Chapter 31, and the Court being sufficiently
advised, it is hereby Ordered that Mr. White be, and hereby is, authorized to proceed
on appeal without payment of fees and costs and that one or more attorneys assigned
by the Appellate Branch, Department of Public Advocacy, Frankfort, Kentucky, shall

represent him on his appeal and on KRS 532.075 review by the Supreme Court.

 
